No. 20A84
IN THE SUPREME COURT OF THE UNITED STATES

REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner-Applicant,
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS PENNSYLVANIA SECRETARY OF STATE,
ET AL.,
Respondents.

Application from the Supreme Court of Pennsylvania
(No. 133 MM 2020)
REPLY IN SUPPORT OF EMERGENCY APPLICATION FOR INJUNCTION
PENDING CERTIORARI REVIEW

KATHLEEN GALLAGHER
RUSSELL D. GIANCOLA
PORTER WRIGHT MORRIS
& ARTHUR LLP
6 PPG Place, Third Floor
Pittsburgh, PA 15222
Phone: (412) 235-4500

JOHN M. GORE
Counsel of Record
ALEX POTAPOV
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
Phone: (202) 879-3939
jmgore@jonesday.com
Counsel for Applicant

Respondents’ Responses only underscore that the Court should grant the
Emergency Application For Injunction Pending Certiorari Review filed by the
Republican Party of Pennsylvania (RPP). Respondents universally agree that ballots
received by election officials after the General Assembly’s Election Day received-by
deadline but before the Pennsylvania Supreme Court’s judicially extended deadline
“should be logged and segregated.” PA Dem. Resp. 1; see also Sec’y Resp. 1–7;
Luzerne Cnty. Resp. 1.

Indeed, as RPP already has explained, such relief is

warranted to protect RPP’s appellate rights and to preserve this Court’s jurisdiction
over the important questions presented. See RPP App. 8–11.
Respondents nonetheless offer various arguments in an attempt to show that
an injunction is “unnecessary,” PA Dem. Resp. 1, 8; Sec’y Resp. 6; Luzerne Cnty. Resp.
1, but none rebuts RPP’s dispositive points. First, Respondents note that county
boards of elections have logged and segregated late-arriving ballots, Sec’y Resp. 1, 6;
Nov. 8, 2020 Letter, Republican Party of Pa. v. Boockvar, No. 20A84 (U.S. Nov. 8,
2020), but no Respondent disputes, let alone disproves, RPP’s showing that the
Secretary’s guidances are not binding on county boards under Pennsylvania law, see
RPP App. 4. Accordingly, absent an order of this Court, there is no legal mandate
that county boards continue to segregate late-arriving ballots for the pendency of this
appeal, and boards could choose to stop doing so at any time. See id.1

1

The Pennsylvania Democratic Party accuses RPP of “manufactur[ing]
evidence” regarding county boards’ compliance with the Secretary’s guidances, but it
cites no authority for its false assertion that RPP’s request that county boards confirm
such compliance was improper. PA Dem. Resp. 4.

1

Second, the Secretary argues that there is no “factual foundation” for RPP’s
“suggestion” that she “might change her guidance.” Sec’y Resp. 7. But the Secretary
already changed her guidance on November 1 even though her October 28 guidance
“had an important bearing on the question whether to order special treatment of the
ballots in question.” Order, Republican Party of Pa., No. 20A84 (U.S. Nov. 6, 2020)
(Alito, J.). That the Secretary may not now intend to “change” her guidance again,
Sec’y Resp. 7, thus does not suffice to preserve RPP’s appellate rights or this Court’s
jurisdiction, see, e.g., RPP App. 5.
Third, Respondents take issue with RPP’s request that the Court additionally
order county boards of elections not to take any other action with respect to latearriving ballots. See, e.g., PA Dem. Resp. 7; Sec’y Resp. 7–9. But as RPP has
explained, the “issue[]” presented “is precisely whether the votes that have been
ordered to be counted” by the Pennsylvania Supreme Court are “legally cast” under
federal law, Bush v. Gore, 531 U.S. 1046, 1046–47 (2000) (Scalia, J., concurring).
Thus, the counting of those votes while that issue remains unresolved “threaten[s]
irreparable harm” to RPP and all Pennsylvanians. Id.; see also RPP App. 11.
Finally, Respondents recognize that Justice Alito’s administrative order
encompasses the logging and segregation relief that they concede is proper. See PA
Dem. Resp. 5; Sec’y Resp. 7; Luzerne Cnty. Resp. 3. RPP agrees that, at a minimum,
Justice Alito’s administrative order, or an order of the Court providing the same
relief, should remain in place pending certiorari review.

2

Respectfully submitted,

/s/ John M. Gore
JOHN M. GORE
Counsel of Record
ALEX POTAPOV
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
Phone: (202) 879-3939
jmgore@jonesday.com

Date: November 9, 2020

KATHLEEN GALLAGHER
RUSSELL D. GIANCOLA
PORTER WRIGHT MORRIS
& ARTHUR LLP
6 PPG Place, Third Floor
Pittsburgh, PA 15222
Phone: (412) 235-4500
Counsel for Applicant

3

